IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

TYRONE VALENTINE, )
)
Petitioner, ) On Petition for Writ of
) Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
)
Respondent. )

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Comes now Petitioner Tyrone Valentine, by court appointed counsel, Kevin
C. Curran, Assistant Federal Public Defender for the Eastern District of Missouri
and requests that the Court permit Petitioner to proceed in forma pauperis with
regard to this Petition for Certiorari which is being filed on his behalf.

The Federal Public Defender's Office was appointed by the United States
District Court for the Eastern District of Missouri to represent the Petitioner
pursuant to the provisions of the Criminal Justice Act, 18 U.S.C. ยง 3006(a) and that
office was also appointed to represent the Petitioner by the United States Court of
Appeals for the Eighth Circuit in proceedings before that Court. The undersigned
counsel, as a member of the staff of the Federal Public Defender's Office for the
Eastern District of Missouri, represented Petitioner during these proceedings.

Petitioner is presently incarcerated under a judgment entered June 17, 2015,

committing him to federal prison for an enhanced mandatory minimum term of his
180 months, from which his estimated date of release is January 30, 2027. The
undersigned counsel knows of no change in circumstances which would affect the
Court's earlier determination that Petitioner should be granted leave to proceed in
forma pauperis.

WHEREFORE, for the above stated reasons and pursuant to Rule 39 of the
Supreme Court Rules, Petitioner request that he be granted leave to proceed in
forma pauperis.

Respectfully submitted,
Zo COS

Sam C. CURRAN

Assistant Federal Public Defender
1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255

Fax: (314) 421-3177

ATTORNEY FOR PETITIONER
